Office of Audits and Evaluations
Report No. EVAL-14-001


The FDIC’s Information Technology
Project Management Process




                                    July 2014
                                       Executive Summary
                                       The FDIC’s Information Technology Project
                                       Management Process

                                                                                       Report No. EVAL-14-001
                                                                                                     July 2014

Why We Did The Evaluation
IT projects involve all FDIC divisions and offices and are critical to the FDIC’s operations and successful
accomplishment of the Corporation’s mission, goals, and objectives. In addition, the FDIC invests
significant funding and internal resources in such projects. For example, as of December 31, 2013, the
FDIC's incurred costs for projects completed or in process during 2012 and 2013 were approximately
$111.7 million.

Our objective was to (1) assess the extent to which the FDIC’s IT projects are meeting their cost,
schedule, and requirements expectations; (2) identify factors that promote project success or prevent
projects from meeting expectations; and (3) identify opportunities for strengthening the FDIC’s controls
for monitoring IT projects. To address the first part of our objective, we obtained reports on IT projects
completed or in-process during 2013. For the second and third parts of our objective, we selected six IT
projects in process or completed during 2012 for in-depth review. In selecting the projects, we included
those governed by the FDIC’s Capital Investment Review Committee (CIRC) and Chief Information
Officer’s (CIO) Council and from a cross-section of FDIC divisions and offices. We also took into
consideration factors such as the project management method employed, estimated cost, the contractor
engaged to work on the project, and the extent to which there were any known problems or positive
attributes. For each project, we reviewed project-related documentation and interviewed FDIC and
contractor personnel involved with the projects, in the context of relevant industry practices and FDIC
policies and procedures.


Background
The Office of Management and Budget (OMB) has reported that IT advancements have been at the center
of a transformation in how the private sector operates—and have revolutionized the efficiency,
convenience, and effectiveness with which the private sector serves its customers. However, according to
OMB, the federal government largely has missed out on that transformation due to poor management of
technology investments, with IT projects too often costing hundreds of millions of dollars more than they
should, taking years longer than necessary to deploy, and delivering technologies that are obsolete by the
time they are completed. Similarly, the U.S. Chief Information Officer has noted that too often, federal
IT projects run over budget, fall behind schedule, or fail to deliver promised functionality. Many projects
use “grand design” approaches that aim to deliver functionality every few years, rather than breaking
projects into more manageable chunks and demanding new functionality every few quarters.

The FDIC’s CIO plays a key role in both IT governance and IT project management at the FDIC.
Specifically, the CIO is responsible for ensuring that all capital investment projects are consistent with the
information technology strategies and objectives of the Corporation, including those related to
architectural alignment, security, and resource optimization. The CIO also ensures that proposed systems
development projects are adequately planned, estimated, resourced, and monitored throughout the
development life cycle.

The FDIC’s Board of Directors approves funding for capital investments, including IT projects, involving
estimated costs of $3 million or more and receives updates on those projects and the performance of the
portfolio as whole on a quarterly basis. The FDIC’s IT projects are governed by three entities—the


                                                        i
                                  To view the full report, go to www.fdicig.gov
                                     The FDIC’s Information Technology Project
  Executive Summary
                                     Management Process
                                                                                    Report No. EVAL-14-001
                                                                                                  July 2014

CIRC, the CIO Council, or the Corporate Management Council (CM)—depending on the cost and nature
of the project.

IT project management is considered to be the day-to-day discipline of organizing and managing
resources (e.g., people and budget) so a project delivers intended requirements within defined scope,
quality, time, and cost constraints. Implementing the process is a shared responsibility among DIT, the
FDIC division or office sponsoring an IT project (client), and the IT contractor responsible for developing
the application.

The FDIC uses the Rational Unified Process® (RUP) as its system development life cycle methodology
(SDLC) for managing IT projects. The RUP framework may be tailored to meet the specific needs of
projects based on their risk (size, scope, and complexity). The RUP framework promotes iterative
development, which is a flexible, risk-focused approach to software development divided into four phases
and eleven disciplines. Although the RUP framework has always included aspects of the Agile
methodology, DIT began promoting and applying the Agile methodology for FDIC IT projects in 2012.
Agile software development supports the practice of shorter software delivery. Specifically, Agile calls
for the delivery of software in small, short increments rather than in the typically long, sequential phases
of a traditional SDLC waterfall approach.

DIT management conducts milestone reviews at the completion of each RUP phase. Milestone reviews
mark a point at which management and technical expectations should be resynchronized. These reviews
should ensure projects have met the goal of each RUP phase and form the basis for determining whether
the FDIC should move to the next phase of the IT project. If a project experiences significant challenges
and is underperforming, the CIO Council may request a TechStat review. A TechStat review is an
evidence-based review of an IT investment based on a model developed by OMB, with a focus on
problem solving that will lead to corrective action to improve overall performance.


Evaluation Results
Most CIRC and CIO Council projects completed or in process during 2013 met planned schedules, were
within 10 percent of annual budgeted expenses, and met user expectations. Still, perceptions and
anecdotes persist that FDIC IT projects are sometimes too costly, experience delays, or do not deliver
promised specifications. During our evaluation, the CIO Council used an annual budget process to
monitor IT project costs. We concluded that the CIO Council could enhance its cost monitoring by
evaluating total project costs against initial project budgets. Doing so would more readily show to what
extent individual projects, and the portfolio as a whole, meet life-cycle cost expectations. The FDIC’s
Project Management Office was developing metrics for tracking projects against initial project budgets at
the time we were completing our fieldwork. Further, the Acting CIO indicated that he will continue to
have dialogues with those having key roles in IT governance and project management regarding metrics
being used to determine project success. Based on these ongoing efforts, we determined that a
recommendation associated with these matters was not warranted.

With respect to the six projects we selected for in-depth review, four of the six have been completed.
Three of the completed projects met both schedule and cost expectations, while the other project missed
the original estimated completion date by 1 year, and actual cost far exceeded the original budget. The
two projects that are in process are both behind schedule and could, as a result, experience cost overruns.

                                                     ii
                                     The FDIC’s Information Technology Project
  Executive Summary
                                     Management Process
                                                                                     Report No. EVAL-14-001
                                                                                                   July 2014

As a result of our interviews and analysis of these projects, we identified the following aspects of the IT
project management process that were key factors in project success or contributed to challenges,
depending on whether and how well they were carried out:

       Thoroughly planning and scoping the IT project.
       Ensuring developers understand the FDIC’s environment.
       Managing IT project collaboration and communication.
       Implementing an effective milestone review process.
       Preparing a dedicated testing team.
       Assigning independent risk managers.

Ensuring that these factors are emphasized and the related controls are in place and working during
ongoing and future IT projects could provide greater assurance that the projects meet cost, schedule and
requirements expectations.


Recommendation and Corporation Comments
The report contains one recommendation for the Acting CIO to: (1) advise client division and offices, IT
project teams, DIT intersecting organizations, and appropriate governance bodies of the key factors in
project success or challenges and related controls we identified in this report and (2) determine whether
guidance in any of these areas needs to be strengthened.

The Acting CIO provided a written response, dated June 25, 2014, to a draft of this report. In the
response, the Acting CIO concurred with the report’s recommendation and described completed and
planned corrective actions, which are responsive to the recommendation.




                                                     iii
                                    Contents

                                                                    Page
Background                                                            2
      IT Project Management Process, Roles, and Responsibilities      2
      System Development Life Cycle Methodology                       4

Evaluation Results                                                    7

   Extent to Which the FDIC’s IT Projects Are Meeting Their Cost,
   Schedule, and Requirement Expectations                             8
      Conclusion                                                     11

   Factors that Promote IT Project Success or Prevent Projects
   from Meeting Expectations                                         11
      Thoroughly Planning and Scoping the IT Project                 12
      Ensuring Developers Understand the FDIC’s IT Environment       14
      Managing Collaboration and Communication                       14
      Implementing an Effective Milestone Review Process             16
      Having a Well-Informed and Dedicated Testing Team              18
      Assigning an Independent Risk Manager to Projects              20
      Conclusion and Recommendation                                  21

Corporation Comments and OIG Evaluation                              22

Appendices
  1. Objective, Scope, and Methodology                               23
  2. Glossary                                                        26
  3. Acronyms and Abbreviations                                      27
  4. Summaries of IT Projects Included in the Evaluation             28
  5. Corporation Comments                                            33
  6. Summary of the Corporation’s Corrective Actions                 35

Tables
   1. Key IT Governance Bodies                                        3
   2. Key IT Project Management Parties                               4
   3. Summary of Sampled IT Projects                                  8
   4. Overall BOI Rating Definitions                                 10
   5. Summary of Projects Sampled                                    24

Figures
   1. RUP System Development Life Cycle Process and Phases            5
   2. Milestone Meeting Rules of Engagement                          17
   3. Summary of FDIC Policies and Procedures and IT Governance
      Documents                                                      23
Federal Deposit Insurance Corporation                                                       Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                          Office of Inspector General


DATE:                                     July 14, 2014

MEMORANDUM TO:                            Martin D. Henning
                                          Acting Chief Information Officer


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  The FDIC’s Information Technology Project Management Process
                                          (Report No. EVAL-14-001)

This report presents the results of our evaluation of the FDIC’s information technology (IT)
project management process. The report contains one recommendation intended to strengthen
controls in areas we determined were key to project success or challenges.

IT projects involve all FDIC divisions and offices and are critical to the FDIC’s operations and
successful accomplishment of the Corporation’s mission, goals, and objectives. In addition, the
FDIC invests significant funding and internal resources in such projects. For example, as of
December 31, 2013, FDIC's incurred costs for projects completed or in process during 2012 and
2013 were approximately $111.7 million.

Our objective was to (1) assess the extent to which the FDIC’s IT projects are meeting their cost,
schedule, and requirement expectations; (2) identify factors that promote project success or
prevent projects from meeting expectations; and (3) identify opportunities for strengthening the
FDIC’s controls for monitoring IT projects. To address the first part of our objective, we
obtained reports on IT projects completed or in-process during 2013. For the second and third
parts of our objective, we selected six IT projects in process or completed during 2012,
interviewed FDIC and contractor personnel involved with the projects, and reviewed project-
related documentation, in the context of relevant industry practices and FDIC policies and
procedures.

We conducted this evaluation in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation. Appendix 1 of this
report includes additional details on our objective, scope, and methodology. Appendix 2
contains a glossary of key terms,1 and Appendix 3 contains a list of acronyms and abbreviations.

Appendixes 4, 5, and 6 include summaries of IT projects we reviewed during our evaluation, the
Corporation’s comments on a draft of this report, and a summary of the corrective actions being
taken to address the report’s one recommendation, respectively.



1
    Terms that are underlined when first used in this report are defined in Appendix 2, Glossary.
Background
The Office of Management and Budget (OMB) has reported that IT advancements have been at
the center of a transformation in how the private sector operates—and have revolutionized the
efficiency, convenience, and effectiveness with which the private sector serves its customers.
However, according to OMB, the federal government largely has missed out on that
transformation due to poor management of technology investments, with IT projects too often
costing hundreds of millions of dollars more than they should, taking years longer than necessary
to deploy, and delivering technologies that are obsolete by the time they are completed.
Similarly, the U.S. Chief Information Officer has noted that too often, federal IT projects run
over budget, fall behind schedule, or fail to deliver promised functionality. Many projects use
“grand design” approaches that aim to deliver functionality every few years, rather than breaking
projects into more manageable chunks and demanding new functionality every few quarters.2


IT Project Management Process, Roles, and Responsibilities
The FDIC’s Chief Information Officer (CIO) plays a key role in both IT governance and IT
project management at the FDIC. Specifically, the CIO is responsible for ensuring that all
capital investment projects are consistent with the information technology strategies and
objectives of the Corporation, including those related to architectural alignment, security, and
resource optimization. The CIO also ensures that proposed systems development projects are
adequately planned, estimated, resourced, and monitored throughout the development life cycle.

For purposes of better understanding the scope and results of our review, it is important that we
distinguish between IT governance and IT project management as it relates to other entities,
offices, and individuals that have functional roles in those areas. The FDIC defines IT
governance as:

        An integral part of enterprise governance which consists of the leadership,
        organizational structures, and processes that ensure that IT sustains and extends
        the FDIC's strategies and objectives. The overall objective of IT governance is to
        understand the issues and the strategic importance of IT. IT governance aims at
        ensuring that expectations for IT are met and IT risks are mitigated.

Table 1 below summarizes the entities that play key roles in IT governance as it relates to the
approval and monitoring of the Corporation’s IT projects.




2
 Effective planning and management of IT and non-IT capital investments are mandated by Congress and by OMB
for most federal agencies. Although many of these laws and directives are not legally binding on the FDIC, the
FDIC recognizes that they constitute best practices and should be adopted in whole or in part.

                                                      2
Table 1: Key IT Governance Bodies
        Governance Body                                               Responsibilities
Board of Directorsa                      Approves funding requests for new and existing capital investment
                                         projects involving estimated costs of $3 million or more. Receives
                                         quarterly updates for individual projects as well as an assessment of the
                                         performance of the portfolio as a whole.
Capital Investment Review                Approves projects estimated to cost more than $3 million. The purpose of
Committee (CIRC)b                        the Committee is to implement a systematic management review process
                                         that supports budgeting for the FDIC’s capital investments and ensures the
                                         regular monitoring and proper management of these investments, once
                                         funded.
CIO Councilc                             Advises the CIO on all aspects of adoption and use of IT at the FDIC. The
                                         Council prioritizes and selects IT projects for funding and reviews the
                                         progress of these projects on a monthly basis.
Corporate Management Council (CM)        Governs projects that focus on improvements and enhancements to
                                         Division of Information Technology (DIT) products.
Project Initiation Review (PIR)          Reviews all FDIC IT projects to ensure DIT management support and
Committee                                compatibility with the FDIC’s IT infrastructure, and avoid duplication or
                                         additional costs. Ensures that the appropriate budgetary resources,
                                         infrastructure standards, security standards, and enterprise architecture
                                         planning are in place to support new project initiatives.
Program Management Office (PMO)          A resource center for clients, executives, project managers, and project
                                         team members engaged in the operations and oversight of IT projects. The
                                         PMO's mission is to continuously improve the practice and results of IT
                                         program and project management.
Source: FDIC DIT Web site.
Notes:
a
  The Board of Directors consists of the FDIC Chairman; FDIC Vice Chairman; FDIC Director; Comptroller of the
Currency; and Director, Consumer Financial Protection Bureau.
b
  The CIRC is chaired by the Chief Financial Officer (CFO) and CIO, and its members include the Chief Risk Officer,
division directors, and the Director, Office of Complex Financial Institutions.
c
  The CIO Council is chaired by the CIO and includes executive representatives of the FDIC’s divisions and offices.

IT project management, on the other hand, is considered to be:

        The discipline of organizing and managing resources (e.g., people and budget) so
        a project delivers intended requirements within defined scope, quality, time, and
        cost constraints.

Implementing the IT project management process is a shared responsibility among DIT, the
FDIC division or office sponsoring an IT project (client), and the IT contractor responsible for
developing the application.3 Table 2 below identifies and describes the key parties involved in
that process.




3
 The FDIC awarded an Information Technology Application Services Basic Ordering Agreement in May 2013 to
11 contractors to develop IT projects and perform other IT-related services for FDIC divisions and offices.

                                                         3
Table 2: Key IT Project Management Parties
             Key Party                                               Responsibilities
Client Program Manager                 Leads the requirements package development for the IT project and for the
                                       final approval of all process and software development documents,
                                       including the establishment and maintenance of roles and responsibilities.
Client Project Manager                 Leads the planning of the project, coordinates interactions with the other
                                       parties involved in the project, and keeps the project team focused on
                                       meeting the project objectives.
DIT Project Manager                    Serves as the Technical Monitor for the software contractor and is
                                       responsible for ensuring the contractor’s performance on the contract in
                                       developing the software. Also ensures that the contractor is coordinating
                                       with other DIT areas such as configuration management, enterprise
                                       architecture, infrastructure services, and quality assurance, which are
                                       known as intersecting organizations (IOs).
Contractor’s Project Manager           Ensures the product is delivered by the contractor in compliance with the
                                       contract requirements and schedule.
Project Testing Team                   Responsible for the core activities of the test effort. Those activities
                                       include identifying, defining, implementing, and conducting the necessary
                                       testing processes as well as logging the outcomes of the testing and
                                       analyzing the results.
Independent Risk Manager               The Division of Finance’s (DOF) Corporate Management Control Branch
                                       (CMCB) provides an Independent Risk Manager for CIRC and other major
                                       CIO Council IT projects. This individual maintains the risk list and
                                       provides risk management support to the project.
Source: OIG review of StarTeam documentation for six IT Projects and the FDIC’s RUP Web site.



System Development Life Cycle Methodology
The FDIC uses the Rational Unified Process® (RUP) as               Agile software development supports the
its system development life cycle methodology (SDLC)               practice of shorter software delivery.
for managing IT projects. The RUP framework may be                 Specifically, Agile calls for the delivery of
                                                                   software in small, short increments rather than
tailored to meet the specific needs of projects based on           in the typically long, sequential phases of a
their risk (size, scope, and complexity). Although the             traditional SDLC waterfall approach. Agile
RUP framework has always included aspects of the                   emphasizes early and continuous software
                                                                   delivery, the use of collaborative teams, and
Agile methodology, DIT began promoting and applying                measuring progress with working software.
the Agile methodology for FDIC IT projects in 2012.                For Agile to be practical, each feature must be
                                                                   fully developed, tested, styled, and accepted
                                                                   by the user before counting it as completed
The RUP framework promotes iterative development,                  and moving on to the next feature. An
which is a flexible, risk-focused approach to software             important aspect of the Agile methodology is
development divided into four phases and eleven                    that the client users are involved in project
                                                                   development and that their feedback from
disciplines as shown in Figure 1.                                  testing is critical.




                                                      4
Figure 1: RUP System Development Life Cycle Process and Phases




Source: FDIC RUP Web site.

A more detailed discussion of each RUP phase follows.


Inception Phase

The primary goal of the Inception phase is to develop an understanding of the client’s
requirements and the purpose of the IT project.

The client, contractor, and DIT project manager scope the project and document the functional
requirements that address the client’s business needs, such as the type of reporting needed, and
non-functional requirements, such as the number of anticipated users, required operating speeds,
and data capacity.

The PIR Committee meets at the beginning and throughout the Inception phase with the project
managers to review start-up of the initiatives, help establish priorities, resolve potential conflicts,
and plan key activities to successfully initiate the project.

During the Inception phase, the IT project team considers alternative solutions for achieving the
client’s needs. Solutions may include purchasing an existing system from a vendor, customizing
an existing product, or developing new software from scratch. It is critical for all aspects of the
project to be explored, including recognizing interfaces with other systems, identifying key risks,
determining acceptance criteria, and capturing the most important reporting requirements, among
other things.
                                                   5
The scope, risks, potential solutions, costs, schedules, resources required, and acceptance criteria
should be understood by the parties responsible for developing the project at the completion of
the Inception phase. However, further knowledge gained in the Elaboration phase may clarify
these aspects of the project and require adjustments.

Elaboration Phase

The primary goal of the Elaboration phase is to prove that the solution selected will successfully
meet the requirements.

The contractor further evaluates the project's architecture and determines the required resources.
The contractor and the client consider possible applications of the software and costs associated
with a project. The contractor also tests critical aspects of the software solution and builds a
prototype of the software to validate that the proposed solution will support the IT project
requirements at a reasonable cost and in a reasonable timeframe. At the end of the Elaboration
phase, the product vision and requirements, and architecture should be stable; the key approaches
to be used in test and evaluation are proven; major risk elements have been addressed and
credibly resolved; iteration plans for the Construction phase are of sufficient detail and quality to
allow the work to proceed; and actual resource expenditure versus planned expenditure is
acceptable. The project may be aborted or considerably re-thought if it fails to reach this
milestone.

Construction Phase

The primary goal of the Construction phase is to ensure that the IT software is useable and
includes all necessary functionality.

The contractor develops and completes the project. The contractor and DIT project manager
should confirm that the client business units are ready to accept the new software. At this time,
the contractor and client should complete the analysis, design and development, and testing of all
required functionality.

Transition Phase

The primary goal of the Transition phase is to ensure that software is available for its users.

The Transition phase can span several iterations and includes testing the product in preparation
for release and making minor adjustments based on user feedback. At this point in the lifecycle,
user feedback should focus mainly on fine-tuning the product, configuration, installation, and
user-related issues. By the end of the Transition phase, lifecycle objectives should have been
met, the contractor and DIT execute deployment plans, and the project should be ready to be
closed out.




                                                 6
Project Reviews

DIT management conducts milestone reviews at the completion of each RUP phase. Milestone
reviews mark a point at which management and technical expectations should be resynchronized.
These reviews should ensure projects have met the goal of each RUP phase and form the basis
for determining whether the FDIC should move to the next phase of the IT project. If a project
experiences significant challenges and is underperforming, the CIO Council may request a
TechStat review. A TechStat review is an evidence-based review of an IT investment based on a
model developed by the OMB, with a focus on problem solving that will lead to corrective action
to improve overall performance. However, in some cases, a TechStat may reveal that the best
course of action for an investment is that it temporarily be halted or even terminated. In
addition, the CIRC meets quarterly and the CIO Council meets monthly to monitor their
respective IT project portfolios. During these meetings, client and DIT project managers make
presentations related to project status and request scheduling and budget adjustments, as needed.


Evaluation Results
Most CIRC and CIO Council projects completed or in process during 2013 met planned
schedules, were within 10 percent of annual budgeted expenses, and met user expectations. Still,
perceptions and anecdotes persist that FDIC IT projects are sometimes too costly, experience
delays, or do not deliver promised specifications. During our evaluation, the CIO Council used
an annual budget process to monitor IT project costs. We concluded that the CIO Council could
enhance its cost monitoring by evaluating total project costs against initial project
budgets. Doing so would more readily show to what extent individual projects, and the portfolio
as a whole, meet life cycle cost expectations. The PMO was developing metrics for tracking
projects against initial project budgets at the time we were completing our fieldwork. Further,
the Acting CIO indicated that he will continue to have dialogues with those having key roles in
IT governance and project management regarding metrics being used to determine project
success. Based on these ongoing efforts, we determined that a recommendation associated with
these matters was not warranted.

With respect to the six projects we selected for in-depth review, four of the six have been
completed. Three of the completed projects met both schedule and cost expectations, while the
other project missed the original estimated completion date by 1 year, and actual cost far
exceeded the original budget. The two projects that are in process are both behind schedule and
could, as a result, experience cost overruns. As a result of our interviews and analysis of these
projects, we identified the following aspects of the IT project management process that were key
factors in project success or contributed to challenges, depending on whether and how well they
were carried out:

      Thoroughly planning and scoping the IT project.
      Ensuring developers understand the FDIC’s environment.
      Managing IT project collaboration and communication.



                                                7
      Implementing an effective milestone review process.
      Preparing a dedicated testing team.
      Assigning independent risk managers.

Ensuring that these factors are emphasized and the related controls are in place and working
during ongoing and future IT projects could provide greater assurance that the projects meet cost,
schedule and requirements expectations. To that end, we are recommending that the Acting
CIO (1) advise client division and offices, IT project teams, DIT intersecting organizations, and
appropriate governance bodies of the key factors in project success or challenges and related
controls we identified in this report and (2) determine whether guidance in any of these areas
needs to be strengthened.


Extent to Which FDIC IT Projects Are Meeting Their
Schedule, Cost, and Requirement Expectations
Most CIRC and CIO Council projects completed or in process during 2013 met planned
schedules, were within 10 percent of annual budgeted expenses, and met user expectations.
Results were mixed as it relates to meeting schedule and cost expectations for the projects we
selected for detailed review, while user satisfaction was consistently favorable. With respect to
projects meeting cost expectations, we discuss in this section how the FDIC’s contracting and
budgeting approaches influenced that metric.

Meeting Schedule and Cost Expectations. Of the FDIC’s 34 projects active or completed
during 2013, 27 were within 10 percent of their project milestones and 31 projects were within
10 percent of their annual 2013 budget.

We selected six projects for review from FDIC’s inventory of IT projects completed or in-
process as of December 31, 2012. As shown in Table 3, three of the completed projects met both
schedule and cost expectations, while the other project missed the original estimated completion
date by 1 year, and actual cost far exceeded the original budget. The two projects that are in
process are both behind schedule and could, as a result, experience cost overruns. However,
such overruns are largely mitigated because the FDIC uses firm fixed-price contracts for the
Construction and Transition phases. As such, the FDIC is generally not obligated to compensate
the contractor for costs above the contract ceiling price. Further, as discussed later, the FDIC
had historically budgeted and measured the cost of projects on an annual basis, which made it
difficult to measure the total actual cost of an ongoing project against its original estimated cost.

Table 3: Summary of Sampled IT Projects
                                 Within
   Name of          Within
                                Contract                     Project Status/Key Points
   Project        Schedule?
                                Budget?
Advanced Legal        No          No        Project Completed. ALIS was originally planned to be
Information                                 completed by first quarter 2012 at a cost of approximately $1.7
System (ALIS)                               million. The CIO Council ordered a TechStat assessment in July
                                            2012 as the project was significantly behind schedule and
                                            over-budget. The TechStat resulted in recommended corrective

                                                  8
                                       Within
    Name of            Within
                                      Contract                       Project Status/Key Points
    Project          Schedule?
                                      Budget?
                                                    actions for improving management of the project. ALIS was
                                                    completed in August 2013 at a total cost of $4.7 million.
Assessment               Yes             Yes        Project Completed. Changes mandated by the Dodd-Frank Wall
Information                                         Street Reform and Consumer Protection Act directly impacted
Management                                          the FDIC Assessment Program and required modifications to the
System (AIMS)                                       AIMS system to address technology obsolescence risks and to
                                                    revise the AIMS’ method for calculating assessments. A key to
                                                    AIMS’ success was that there was 100 percent staff involvement
                                                    from DOF’s Assessments Branch.
Claims                                              Project Completed. CAS had strong senior management support.
Administration           Yes             Yes        A key to the project’s success was that the project scope was
System (CAS)                                        identified early and remained constant throughout the project.
Examination               No           Yes, but     Construction Phase in Process. During our evaluation, ETS-
Tools Suite-                          will likely   SAGE was progressing well and parties we interviewed reported
Supervisory                            exceed       favorably on the use of the Agile development approach.
Application                            budget.      However, significant challenges developed during the second
Generating                                          half of 2013 when the project team discovered that, although the
Exams (ETS-                                         IT solution worked in the test environment, it would not work in
SAGE)                                               remote locations where it is most needed. As a result, the project
                                                    has experienced several delays and will require a contract
                                                    extension to be completed.
Identity Access          Yes             Yes        Project Completed. IAMS experienced a number of challenges
Management                                          early in the development and the contractor appeared to have
System (IAMS)                                       misunderstood the complexity of the project. The contractor’s
                                                    project manager and other key team members were replaced and
                                                    the project’s development significantly improved.
Proforma                  No             Yes        Construction Phase in Process. The project has been
Modernization                                       significantly challenged with application, hardware, connectivity,
(PROFORMA)                                          and network performance issues. The FDIC’s current
                                                    infrastructure does not support the IT solution developed by the
                                                    contractor. The CIO Council approved a 5-month extension of
                                                    the project completion date in January 2014.
Source: OIG interviews and review of IT project files.

Meeting Requirements Expectations. To gain perspective on the extent to which FDIC IT
projects are meeting requirements expectations, we asked FDIC users that participated in testing
of the IT projects in our sample whether they considered the IT project to be performing as
expected. The perceived success of an IT project may change over time; however, the responses
we received indicated consistent satisfaction with the performance of these projects. Even on
completed projects that overcame significant challenges and delays, the users felt that the end
product met or exceeded their expectations.

In addition, to validate the extent a project has realized its objectives, business values, and
outcomes, DIT’s PMO conducts a business outcome and lessons learned evaluation on
completed CIO Council and CM projects.4 These post-project surveys indicated that the FDIC’s
IT project management process is ultimately delivering software development products that meet

4
 The objectives, business values, and outcomes are established at the outset of a project in the Business Proposal
Outline or Project Proposal Outline by the client organization with the assistance of a DIT business analyst.

                                                          9
users’ expectations, even when IT project development is not completed within estimated
milestones and budgets.

The PMO assigns Business Outcome Index (BOI) ratings for each IT project based on Business
Value Realized, Project Objective Attainment, and Quality of Delivery, and the PMO assigns an
Overall Project Rating. As of December 31, 2013, based on ratings of 68 IT projects, the
average BOI was 3.7 based on a 5-point scale indicating that IT projects generally exceeded their
expected business value. Table 4 illustrates the overall BOI rating definitions for 2013 projects.

Table 4: Overall BOI Rating Definitions
            BOI Rating                Initiative Realized Value           Number of Projects
Greater than 4 and/or equal to 5          High Business Value                    32
Greater than 3 and/or equal to 4       Exceeded Business Value                   25
Greater than 2 and/or equal to 3             Realized Value                       9
Greater than 1 and/or equal to 2          Low Business Value                      2
Source: FDIC DIT Web site.

Monitoring and Reporting Project Status. We observed that IT project delays and cost
variances were monitored and reported timely to the FDIC’s governing IT committees, in
accordance with CIRC and CIO Council guidelines. DIT provides the governing committees
with a variety of IT project management reports, monthly or as needed, and posts monthly status
reports on the FDIC Intranet. Reports are available on project status, including a monthly
reporting of the current RUP phase of each project in relation to approved milestones. In
addition, as discussed earlier, DIT’s BOI process evaluates the success of IT projects in meeting
users’ expectations, and CMCB performs post-project reviews of CIRC portfolio projects.

When projects included in our evaluation experienced challenges, actions were taken to identify
causes and correct IT project management issues. As noted earlier, one of the projects included
in our evaluation received a TechStat review because of CIO Council concerns regarding
milestone and cost variances. The review identified various corrective actions to improve project
management.

Efforts to Enhance IT Project Management. In August 2012, the CIO Council adopted
CMCB recommendations to improve the overall governance of projects and sharpen the focus on
major projects. These guidelines included:

        Tracking and monitoring total direct costs of projects, including planning and
         implementation project costs; discontinuing the use of division-level discretionary funds
         to cover project shortfalls; and allowing the CIO Council to request TechStat reviews at
         any time.

        Using a line-of-sight approach to group projects that were previously broken into annual
         phases or releases into a single fully-scoped project, and requiring new cost and
         milestone baselines at the end of each RUP phase for the complete project.

        Designating certain CIO Council projects as “major projects” to receive greater oversight,
         increasing reporting and briefings to the CIO Council on major projects, and requiring

                                                 10
       PMO evaluation of projects with variances to determine if the project should be
       redesignated as a “major project.”

      Establishing new reporting and metrics to the CIO Council and quarterly reports on
       system performance and health.

DIT began routinely providing the CIO Council with the total project cost in addition to the
annual budgeted cost in February 2013. Still, during our evaluation, we determined that the CIO
Council could do more to monitor total project costs against the initial project budget on a
portfolio basis. Specifically, the CIO Council monitored non-CIRC projects using an annual
budget process, which could limit insights into overall cost performance for projects spanning
multiple years. While CIO Council members could request that DIT’s PMO prepare an analysis
showing a project’s original budget to actual costs incurred-to-date, DIT did not maintain such
information on an ongoing basis. More recently, in April 2014, the PMO revised the CIO
Council Notification Report to include, among other things, total project budget information to
provide council members with a financial assessment for the total investment and to allow
visibility into future year budget requirements.

Conclusion

At our exit conference, the Acting CIO acknowledged that there remains some concern within
the FDIC as to whether IT projects are being implemented efficiently and effectively—despite
current metrics indicating otherwise—and is continuing to work towards implementing
meaningful metrics for project success that are understood and agreed upon by those having key
roles in executing and monitoring IT project management. Further, efforts to refine and improve
the reporting of cost and other aspects of IT project status to the CIO Council and other program
officials were well underway as we completed our fieldwork. Accordingly, we concluded that a
recommendation was not warranted to address our findings in this area.


Factors that Promote Project Success or Prevent Projects
from Meeting Expectations
We identified six factors that either promoted IT project success or prevented projects from
meeting expectations based on our interviews and analysis of the six projects that we selected for
detailed review. These projects involved a variety of FDIC divisions and offices, DIT project
managers, and IT contractors. A summary of the projects, including their purpose and a
description of their respective project management processes, is provided in Appendix 4.


Thoroughly Planning and Scoping the IT Project
Selecting the Right Contractor and IT Solution. Adequate planning of the IT project begins
with consideration of all available IT solutions during the Inception phase. FDIC RUP
guidelines note that before scheduling the Inception milestone review, the project team should

                                               11
have selected the solution architecture and determined it to be feasible from a business and
technical perspective. Project managers for two projects in our sample stated that the success of
their projects was directly attributable to an effective contracting process during which a variety
of IT solutions were evaluated. The technical evaluation panel considered each proposal and the
selection was based on the quality of the contractors’ understanding of the business needs and
processes rather than on cost. On other projects that encountered numerous challenges, we were
told that, in hindsight, the selection process of the IT solution and contractor was abbreviated or
not fully executed and that the project team should have given greater consideration to an
alternative solution or contractor. Contractors who had worked on multiple FDIC projects told
us that the project works best when the business unit knows what it wants and considers a variety
of contractor solutions.

Understanding Project Scope and Complexity. Properly scoping the project and accurately
communicating the project’s complexity is critical to project success. DIT Milestone Review
Guidelines note that the scope of work should be defined, validated, and agreed upon by the
business and technical stakeholders during the Inception phase. FDIC RUP guidance documents
require a number of scoping-related documents, including the Vision document, software
development plan, and risk lists that should be prepared or in-process at the Inception milestone
review decision point. Project managers and other
officials whom we interviewed indicated that many Vision Document
                                                         Defines the stakeholders’ view of the technical
of the challenges they faced could have been             solution to be developed. It communicates the
avoided if the project had been better understood by fundamental “what and why” for the project and
all parties when it was being planned. For example, provides a strategy against which all future project
                                                         decisions can be validated.
on one project, much of the contractor’s project team
needed to be replaced because the complexity of the project was not adequately documented
when it was proposed. That project involved multiple FDIC divisions and offices, and interacted
with numerous FDIC systems. After the project began encountering problems, the contractor
replaced its project manager and other lead staff, and progress on all aspects of the project
greatly improved. Another project was originally cast as an upgrade; however, after the project
met significant challenges, a project review determined that it should have been treated as a
major overhaul. FDIC RUP guidance notes that for projects focused on enhancements to an
existing system, the Inception phase is briefer than for full system development efforts.
Accordingly, project teams should ensure that the scope and complexity are fully understood to
preclude a project from being misclassified and not subject to sufficient planning.

In those two projects, the contractor and DIT project managers were replaced with more
experienced personnel and the projects’ progress significantly improved. FDIC officials we
spoke to recommended that the client should ensure that the complexity of a given project is
clearly identified during the planning and scoping of the project, prior to the contractor and DIT
assigning personnel to a project. Contractors also told us that ensuring that the quality of the
staff is compatible with the complexity of the project is critical. The FDIC RUP guidelines for
conducting the Inception milestone review include reviewing resource availability, expertise, and
engagement for preparedness in moving to the next RUP phase.

Setting Realistic Milestones. FDIC officials we spoke to for one project we reviewed felt that,
in hindsight, the challenges they faced resulted from the scope of the project not being

                                                  12
effectively communicated to FDIC senior management. As a result, the milestones established
for the project were too aggressive. Unrealistic milestones negatively affected the project
primarily in two ways. First, it put unneeded pressure on the project team to meet the deadlines
and caused the team to reduce communication on the project. Second, because of the unrealistic
deadlines, the contractors stated that they were not allowed time during the Inception phase of
the project to gain an adequate understanding of the FDIC’s technical environment. FDIC RUP
guidelines note that one of the objectives of the Inception phase is to develop initial cost and
schedule estimates, to be followed by more detailed and reliable estimates in the Elaboration
phase. The guidance also notes that cost and schedule estimates should be credible and
justifiable.

Focusing on Business Needs Rather Than IT Capabilities. Other comments related to
planning centered on the importance of the FDIC client ensuring that the proposed solution
meets the FDIC’s business need as opposed to the contractor changing the FDIC’s business
process to meet a contractor’s proposed solution. FDIC project managers suggested that the
client should lead the discussion with the contractor to ensure that the contractor fully
understands the business requirements and should not change the business requirements to
conform to limitations of a proposed solution. On one project that we reviewed, officials we
spoke to said that, in hindsight, they wish that they had not allowed the contractor to lead the
discussion to such a large extent. Those officials believed that this approach took them away
from pursuing the original project concept to a more involved project that experienced many
challenges.

Contractors agreed that they should not be leading business requirements discussions, and that
they should be responding to the client’s needs. These contractors noted that project
development is facilitated when the DIT project manager has a good understanding of the
client’s business unit. Contractors also said that DIT should be working to find IT solutions that
fit the business rather than making the business process fit the IT solution. Contractors further
explained that the process works best when the developers are able to meet with as many of the
users as possible early on and when the users are heavily involved in the requirements phase.
Contractors emphasized that it is critical for the developers to have a complete understanding of
users’ needs before designing the IT solution.

The FDIC RUP Web site includes key principles for business-driven development and notes the
need to balance competing stakeholder priorities between developing an application that does
exactly what the stakeholder wants, which may be costly and time intensive to develop versus
leveraging a less-costly, more-timely packaged application that limits user requirements. To be
in a position to balance needs, the project team must understand and prioritize business and
stakeholder needs. This means capturing business processes and linking them to projects and
software capabilities and involving the customer in the project to ensure the project team
understands the users’ needs.




                                                13
Ensuring Developers Understand the FDIC’s IT Environment
Understanding Technical and Operational Issues. Ensuring that the development team has a
complete understanding of the technical and operational environment is a key factor during the
Inception phase to promote project success. FDIC RUP guidelines for the Elaboration phase
include confirming that infrastructure impacts, such as bandwidth, storage, etc., have been
identified and communicated. Comments from project managers we interviewed centered on the
importance of the contractor’s understanding of the FDIC’s technical and operational
environment, including hardware, software, and requirements analysis. On the two projects in
our sample that were described as proceeding very well by officials whom we interviewed,
project managers stated that the contractors’ understanding of the FDIC’s technical and
operational environment greatly facilitated the project. On three other projects in our sample that
experienced unanticipated challenges, FDIC project managers specifically stated that the
contractors’ lack of understanding of the FDIC’s environment was a primary reason for the
difficulties encountered. On those projects, contractors did not clearly understand security
requirements, age of the FDIC’s laptop computers, firewall limitations, data migration
technology, and bandwidth limitations. As a result, unexpected issues arose during system
development testing in the Construction phase that caused milestone delays while the project
team developed strategies to mitigate the issues.

Developing Systems Within the FDIC’s IT Environment. Another common element of these
three projects is that, in each case, the contractor developed the software outside of the FDIC’s
IT environment. Significant deficiencies were identified when the system was tested in the
FDIC IT environment. On each of these projects, the solutions that the contractors employed
would succeed in an ideal working environment. However, because much of the FDIC’s work is
conducted in remote locations, requires enhanced security, or involves other limitations, the
developed software was incompatible with the FDIC’s current technology. FDIC project
managers told us that, in hindsight, they would have ensured that the contract required the
contractor to develop the IT project within the FDIC’s environment. Other IT projects where
development was conducted within the FDIC’s IT environment did not have deficiencies to the
extent to which those projects developed outside the FDIC did. The RUP Elaboration phase
milestone review guidelines suggest understanding whether the development tools contemplated
for the project have been used before at the FDIC. However, we did not identify any explicit
FDIC guidance that IT projects should be developed within the FDIC’s IT environment.


Managing Collaboration and Communication
Managing communication is a critical aspect of IT project management. Obtaining buy-in and
representation from all participants in the project’s development, marketing the benefits or
reasons for the project, and managing the expectations of end users all are relevant to ensuring a
successful project. Much of the feedback we received from both FDIC and contractor personnel
regarding factors that facilitate IT project management centered on collaboration and
communication among the FDIC project team, contractor, and IOs.



                                                14
Holding Regular Team Meetings. For each of the projects in our sample, we asked project
managers and testing team members what they felt had facilitated their respective IT projects,
and if the project started over, what they would have done differently. One commonly stated
factor was the level of communication among the project team, contractor, and IOs. Specifically,
holding regular meetings between the contractor and business users throughout the project and
early communication between the contractor and IOs were often cited. FDIC and contractor
recommendations centered on holding regular program meetings early in the project with FDIC
IOs, involving users in meetings early in the project and as much as possible, and holding regular
discussions with FDIC officials and contractors involved in the project development. Officials
we interviewed said that it is important for the testing team to be fully informed as to the time
that will be required of them before they join the project. We were told that it greatly facilitated
the project when everyone was consistently available during meetings and users made a
dedicated commitment to participate in all meetings and discussions. One project manager told
us that one of the things he would have done differently would be to press for a larger travel
budget just to have everyone together in the same room because face-to-face meetings were
always the most beneficial.

A key principle discussed on the RUP Web site is collaborating across teams. This principle
stresses the importance of fostering optimal project-wide communication achieved through
proper team organization and effective collaborative environments. This principle involves
motivating individuals on the team to perform at their best and creating self-managed, cross-
functional teams (e.g., analysts, developers, testers) with the authority to decide on issues
directly influencing their work. Cross-functional collaboration helps to break down the walls
that often exist among analysts, developers, and testers. Each team member needs to understand
and buy in to the mission and vision of the project.

Involving Intersecting Organizations Early. Contractors told us that coordinating with the
IOs and ensuring full understanding of the business           Intersecting Organizations
function and relationships between the business unit and
                                                               • Configuration Management
IT organization is a critical element in IT project            • Corporate Management Control
management. Contractors said that DIT’s work to                • Development Support and Monitoring
facilitate coordination with the IOs throughout the project        Section
greatly improved their ability to keep the project on          •   Enterprise Architecture
                                                               •   Enterprise Information Management
schedule. In other cases, where projects experienced           •   Independent Test Section
challenges, FDIC project managers told us that the IT          •   Information Security and Privacy Staff
contractor should have reached out to IOs earlier in the       •   Infrastructure Services Branch
project. FDIC guidance related to each of the RUP phases       •   Peer Estimation Group
                                                               •   Program Management Office
discusses the importance of engaging the IOs well in           •   Quality Assurance
advance of milestone reviews in order to understand and        •   Release Management
adhere to all IO requirements.

Practicing Agile Coordination. One aspect of the RUP and Agile methodologies is for the
project team to ensure that those participating in the project’s development are motivated and
dedicated to the long-term IT project. Officials we interviewed told us that frequent meetings
that apprised them of the project status and upcoming activities helped them to engage and
understand how their involvement fit into the bigger picture. Testers provided positive

                                                15
comments consistently when they understood the testing process and felt they were a key part of
the solution. On one project that was behind schedule, the testers we interviewed did not have a
good understanding of the testing process and did not seem enthusiastic about the IT project.

Projects that involved heavy user participation also reported fewer challenges that negatively
affected the projects’ schedule. On two of the projects included in our evaluation, we were told
that divisional staff participated extensively in project testing, including writing their own test
scripts, deciding the test schedule, and following up on results of user acceptance testing. The
contractors on these projects specifically stated that the substantial participation of the user
groups greatly facilitated the project. Conversely, FDIC project managers told us that when the
project met challenges, these were often due to the lack of consistent communication between
the contractors and sponsoring division personnel or DIT IOs, or both. Both contractor and
FDIC personnel stated that early communication with the IOs is especially important under the
Agile methodology. Collaboration and communication across teams is a key principle of the
RUP and Agile methodology so when communication is lacking, the effectiveness of the
development methodology is likely to be adversely affected.


Implementing an Effective Milestone Review Process
Ensuring Projects Meet All Milestone Review Requirements Before Moving to the Next
RUP Phase. The RUP framework requires that milestone reviews be conducted prior to the IT
project moving to the next project phase. Milestone reviews are of special importance because
the FDIC includes a large number of IOs that need visibility into key aspects of IT projects to
make sure that the concerns they represent are addressed adequately. All IOs are invited to
milestone reviews that determine whether the project should be allowed to move forward to the
next phase. Most of the officials we interviewed reported that they were satisfied with the
overall milestone review process. However, we received a number of comments that the
milestone review process could be enhanced to be more effective and facilitate the project
transition from one RUP phase to the next.

FDIC RUP guidelines for conducting milestone reviews at each of the RUP phases include
specific discussion points pertaining to accomplishments; risks mitigated, accepted, and
outstanding; preparedness to continue to the next RUP phase; deployment strategy (for the
Transition phase); and concurrence. The RUP guidelines also include suggested clarifying
questions that reviewers may wish to cover during milestone reviews. Figure 2 presents rules of
engagement for conducting milestone reviews.




                                                 16
Figure 2: Milestone Review Meeting Rules of Engagement
     The agenda is provided in advance and at the meeting. Attendance will be recorded.
     The DIT Project Manager is solely responsible for running the meeting and tailoring the structure to meet
      the specific needs of the project.
     The DIT Project Manager is responsible for ensuring that minutes will be kept, circulated for approval
      afterward, and posted.
     No conditional approvals will be issued.
     Identification of action items during the meeting may require project plan revisions, and the project may not
      be approved to move to the next RUP phase. In such cases, a second, reduced scope milestone review must
      be conducted.
     Silence and non-participation equate to support and consent to proceed.
     Sufficient advance notice will be given to target attendees to permit appropriate participation.
     In the case of scheduling conflicts, target attendees may send alternates; alternates must agree to these rules
      of engagement.
Source: DIT Web site, Milestone Review Playbook.

As shown, the guidelines state that the project manager is responsible for ensuring that minutes
are kept and circulated for approval following the milestone review. However, minutes were not
available on any of the projects included in our sample. The only documentation DIT provided
were PowerPoint presentation slides from the milestone review meetings. Therefore, we could
not evaluate the depth of questions and answers discussed during any of the milestone reviews
for the projects included in our evaluation. Circulation of minutes to milestone review
participants helps to reinforce meeting expectations and action items due and to confirm meeting
discussion points.

Improving the Intersecting Organization Approval Process. Project managers told us that
one of the most frustrating aspects of the milestone review is the IO approval process. Project
managers begin preparing for the milestone review about 1 month prior to the formal meeting.
Project managers hold meetings with the IO managers during which they discuss the RUP phase
and project accomplishments and provide documentation supporting that the phase has been
completed. The IOs then indicate their approval via e-mail or signature that the project may
move to the next RUP phase. A few of the project managers we spoke with said that the
procedure for obtaining approval from the IOs needs to be revised because it often requires
repeated attempts to get the IOs to respond. FDIC RUP guidance on the Transition phase
milestone review provides questions related to coordination with IOs, including which IOs need
to be involved in system deployment readiness, level of IO participation, whether the project
team has shared information with IOs, and whether IOs are fully informed of the system
deployment and concur with moving forward.

In addition, many of the project managers we spoke with felt that the IOs should be required to
attend the milestone review meeting. Although the guidelines for milestone reviews indicate that
all IOs are invited to the milestone review meeting, we heard from multiple project managers
that often there is not a representative from all IOs at milestone review meetings. For example,
the Inception phase of product development includes defining project scope and identifying
technical challenges. Officials we interviewed on one of the projects in our sample stated that, in
hindsight, they considered both the Inception and Elaboration milestone reviews as being rushed.
They felt that the project should not have been permitted to move from the Inception to the
Elaboration phase because there had not been adequate discussion and interaction by the

                                                         17
contractor with the IOs regarding the FDIC’s IT environment. We did not note any guidance
requiring IOs or IO representatives to attend milestone review meetings.

Project managers also explained there were no questions during the milestone review about
whether the solution would work in the FDIC’s technical environment. Other officials
associated with this project stated that that they felt the Elaboration milestone review was rushed
as well. They felt that more discussion and preparation with the IOs might have identified issues
related to the FDIC’s technical environment prior to completing the Elaboration phase.
Subsequently, this project encountered numerous challenges due to the contractor’s lack of an
adequate understanding of the FDIC’s technical environment. It was suggested that greater IO
participation in both the Inception and Elaboration milestone reviews may have altered the
decision for the project to be approved for the next phase. We noted that the FDIC’s RUP
guidelines recommend confirming that infrastructure impacts, such as bandwidth, storage, etc…
have been identified and communicated. In addition, the Transition milestone review guidelines
recommend discussion of whether the Physical Configuration Review (i.e., hardware, software
components, operating system, configuration files) has been completed to verify that the quality
assurance staging environment matches the target production environment.

Making Milestone Reviews Meaningful and Comprehensive. We also received comments
that the overall milestone review process should be more comprehensive. Officials we
interviewed told us that the manner in which milestone reviews are conducted is geared more
towards making sure the required paperwork is completed than actually ensuring that the goals of
the RUP phase have been successfully completed. They further noted that while questions are
raised at the milestone review meeting, participants do not sufficiently explore project details.
Many managers use checklists to ensure all requirements are documented, but there is not
enough done to evaluate the adequacy of the project as a whole. One project manager who was
assigned to a project during the Construction phase explained that, in her opinion, the contractor
was not following the RUP methodology as required because the Elaboration phase was not
completed when Construction began. The project manager did not understand how the project
made it through the Elaboration milestone review and said that, had the Elaboration phase been
properly completed, many of the issues that plagued the project may not have occurred. As
discussed earlier, the FDIC RUP Web site includes specific guidelines for discussing project
accomplishments, risks, and preparedness for continuing to the next phase, to be used in
milestone review meetings.


Having a Well-Informed and Fully-Dedicated Testing Team
The quality of user testing is an important factor that facilitates successful IT project
management. This is especially critical when employing the RUP and Agile methodologies
because testing occurs throughout the project lifecycle. Agile testing has been referred to as the
headlights of the project because it shows the project manager where the project is and where it
is headed. Testing provides information to the project
manager from which critical development decisions are          Agile development recognizes that testing is
                                                               not a separate phase, but an integral part of
made so that the ability to test the software drives the IT software development.
development. FDIC personnel involved in the testing

                                                     18
process and project managers explained that the quality of the testing process significantly
influences whether or not the project will meet milestones and users’ expectations. We also
observed that the feedback we received from testing participants as to their level of satisfaction
with the testing process matched the overall level of project success indicated to us by the project
managers.

Another key principle for business-driven development is focusing on continuous quality. This
means that quality must be addressed throughout the project lifecycle through iterative testing.
Project teams should test early and continuously throughout the system development effort. All
project members should “own” quality and design the system and write code with testing in
mind. Testing should be expanded as part of each software iteration and should include
regression testing to make sure that defects are not introduced as new iterations add
functionality.

Selecting the Right Users to Test the Solution. Project managers told us that the quality of
their user testing team contributed to the level of success on the project. It was critical for the
testing team to include subject matter experts familiar with the program area for which the
application was being developed and an adequate number of testing participants.

One project manager attributed successful project completion primarily to the exceptional efforts
of the testing participants. The project manager indicated that the testing participants wrote their
own test scripts, decided the test schedule, and met daily during user acceptance testing. The
developer was able to correct all deficiencies on schedule due to the excellent work of the testing
team. A contractor on this project said organization of the testing teams facilitated the
contractor’s work on the project. On other projects, the project managers told us that because of
the dedicated work of the testing teams, errors were caught early in development and were
quickly corrected.

Training Team Members on the Agile Testing Process. Testing participants that received
training on the Agile testing process prior to project testing generally had positive comments
regarding the project. They explained that it is
important for testers to receive training so that they Federal Challenges in Applying Agile
                                                          A 2012 Government Accountability Office (GAO)
understand that the testing and retesting process is      report (GAO-12-681) noted several challenges
normal during Agile development. In those                 that agencies face in implementing Agile.
instances when the testing process encountered            • Teams had difficulty collaborating closely.
problems, those individuals we interviewed                • Teams had difficulty transitioning to self-
                                                             directed work.
indicated it was because team members                     • Staff had difficulty committing to more timely
participating in the testing process had not been            and frequent input.
trained on the Agile methodology. As defects were • Agencies had trouble committing staff to Agile
                                                             development efforts.
repeatedly encountered, the team members became
                                                          • Customers did not trust iterative solutions.
frustrated with the overall testing process.              • Teams had difficulties managing iterative
Frustration with Agile testing is likely if testing          requirements.
participants do not understand how the system is
                                                          FDIC and contractor officials we interviewed
being developed iteratively and are expecting a fully expressed some of these same concerns.
functional system when testing is initiated.



                                                    19
The majority of negative comments we received from testers occurred when they felt they had
not been provided adequate instruction prior to the testing process. Comments from these testing
participants included complaints that they had not been adequately prepared for the process,
testing took too long, there were too many errors, the test scripts did not work, and they did not
understand what happened to the defects they reported because nothing ever seemed to work as
expected. These testers appeared to be frustrated with the process and complained that it
detracted from their primary assignments. Because they had not been adequately prepared for
the time requirement and did not understand the Agile testing process, these testing participants
had a negative view of the IT project and were not enthusiastic about their involvement.

We noted that FDIC’s RUP Web site includes information about computer-based instruction
courses available through FDICLearn. RUP-related course titles include Breaking the Work Up:
Iterative Development Overview and Software Requirements Specification Overview.

Dedicating Team Members and Maintaining Continuity. Testers should also be adequately
prepared for the time commitment required when assigned to project development testing. This
is especially important under the Agile methodology because the software is modified based on
users’ feedback. Those testing teams that were made aware of the time requirement and how
their testing work affected the project development reported a positive testing experience. They
indicated that while the testing process might become tedious at times, they understood the
importance of their work and appreciated that they had the opportunity to be a part of the project
development.

Project managers for one of the projects in our sample told us that having a consistent team of
testing participants would have greatly facilitated the project development. The ability of FDIC
divisions or offices to have a designated testing team varies due to the division or office’s work
requirements and resources. For example, the workload of Division of Resolutions and
Receiverships (DRR) staff may fluctuate significantly due to the number of bank closings and
related activities required of DRR staff. Where dedicating a consistent team of testing
participants is not possible, ensuring that testing participants are fully briefed on the testing
process and time requirements so that they understand the importance of their work and properly
plan their involvement is a critical component of IT project management.


Assigning an Independent Risk Manager to Projects
Effectively managing and mitigating IT project risks is a key tenet of the RUP and Agile
methodologies. Risks exist within each RUP phase that should be fully addressed before the IT
project team begins work on the next phase. The project managers we interviewed agreed that
when risks are not properly mitigated, especially before moving from the Elaboration phase to
the Construction phase, problems are likely to arise that will delay the project.

The FDIC RUP Web site discusses essential elements of RUP, including mitigating risks and
tracking related issues. The Web site notes that it is essential to identify and attack the highest
risk items early in the project. The risk list is intended to capture the perceived risk to the
success of the project. Along with each risk should be a plan for mitigating that risk.

                                                 20
Assigning Independent Risk Managers to All Major Projects. Under the RUP methodology,
the contractor’s project team should include a risk manager who tracks potential project risks and
monitors the project’s progress in mitigating risks. In addition to the contractor’s Risk Manager,
CMCB provides an Independent Risk Manager (IRM) for all CIRC projects and other major
projects as needed. Four of the IT projects in our sample included an IRM. Project managers
provided very positive feedback regarding the
IRM’s participation on their projects. Officials      IT Project Team Member Comments About IRMs
we interviewed stated that an IRM facilitates IT      “An IRM is very beneficial, especially when you have
project management by focusing on risk                an IT project that crosses numerous divisions.”
identification, providing a different perspective
                                                      “IRMs have a different perspective from outside the
of risks based on factors outside the project and     project that I came to appreciate.”
across many projects at once, and ensuring
mitigation of risks in a timely manner. One contractor manager we spoke with indicated that
having an IRM was pivotal to the success of the project and recommended that one should be
assigned to IT projects estimated to last over 1 year. Others managers offered that the IRM’s
ability to provide an independent perspective reduces the “finger pointing” among the client,
DIT, and the contractor. Project managers agreed that it is important for the IRM to be included
in all meetings and have a full view of the project. Some also felt that the IRM did not need to
be an IT expert but more of a risk expert that knows what issues need to be considered that might
not be evident to the project team.

Ensuring IRM Concerns Are Addressed. Although officials we interviewed provided this
positive feedback, we were advised that the concerns of the IRM were not always mitigated in a
manner that fully addressed the intent of the risk identified. On one of the projects in our
sample, even though the IRM noted many risks early on in the project, the IRM felt that the
project managers worked to dismiss the concerns raised instead of working to address IRM
concerns. As the IT project moved to the Construction phase of the project, it encountered
numerous delays and challenges. During a lessons learned session at the completion of the
project, IT managers concurred that had the concerns of the IRM been properly addressed, some
of the challenges the project experienced may have been averted.

Among the reasons given for two of the IT projects in our sample that experienced significant
delays and challenges is that the RUP Elaboration phase objectives had not been fully completed
before the project team began work on the Construction phase. As a result, significant risks were
not identified prior to building the project and when they came to light, the project needed to be
reworked. In hindsight, project managers believed that had the concerns of the IRM been given
greater consideration, these risks may have been identified and perhaps mitigated earlier in the
project development.


Conclusion and Recommendation

Our interviews and analysis led us to identify a number of key factors that can either make or
break an IT project. Three of the six projects we sampled experienced significant delays, in part,
because factors discussed in this report were not fully addressed. These same factors, however,
were equally important to those projects that were completed on time, within budget, and
consistent with requirements. Not surprisingly, these factors involved project planning,
                                                   21
understanding the IT environment, collaborating across teams, asking the right and difficult
questions at key milestones, engaging subject matter experts, and addressing project risks early
and head-on.

Accordingly, we recommend that the Acting CIO:

(1) advise client division and offices, IT project teams, DIT intersecting organizations, and
appropriate governance bodies of the key factors in project success or challenges and related
controls we identified in this report and (2) determine whether guidance in any of these areas
needs to be strengthened. The most notable factors and issues include:

          Considering all available IT solutions during the Inception phase;

          Documenting, assessing, and communicating the complexity of a proposed IT
           solution to appropriate parties to ensure that contractor resources and milestones are
           commensurate with requirements;

          Ensuring the development team completely understands the FDIC’s technical and
           operational IT environment, and development occurs within that environment;

          Ensuring consistent collaboration among all those involved in the project and that
           contractors communicate and coordinate with the FDIC’s IOs early and often;

          Facilitating IO approval for projects to move to the next RUP phase and their
           participation in milestone review meetings;

          Ensuring milestone reviews fully explore the adequacy of the work performed and
           that all risks are properly mitigated prior to RUP milestone approval, including those
           identified by the IRM;

          Establishing dedicated IT project testing teams that are fully briefed on the testing
           process and anticipated timeframes; and

          Ensuring there is an awareness of the Agile approach to system development and its
           impact on implementing and measuring the progress and value of IT projects.


Corporation Comments and OIG Evaluation
The Acting CIO provided a written response, dated June 25, 2014 to a draft of this report. The
response is presented in its entirety in Appendix 5. In the response, the Acting CIO concurred
with the report’s recommendation and described completed and planned corrective actions to
address the recommendation. A summary of the Corporation’s corrective actions is presented in
Appendix 6. The completed or planned actions are responsive to the recommendation, and the
recommendation is resolved.


                                                22
                                                                                                    Appendix 1

                     Objective, Scope, and Methodology
Objective

The objective of the evaluation was to (1) assess the extent to which the FDIC’s IT projects are
meeting their cost, schedule, and requirements expectations; (2) identify factors that promote
project success or prevent projects from meeting expectations; and (3) identify opportunities for
strengthening the FDIC’s controls for monitoring IT projects.

We conducted this evaluation from April 2013 through February 2014 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation. We performed our evaluation work at the FDIC’s offices in Arlington, Virginia
and Dallas, Texas.

Scope and Methodology

To address our evaluation objectives, we first gained an understanding of the FDIC’s IT project
management governance structure and processes, including internal controls for monitoring and
reporting on the FDIC’s IT projects by reviewing relevant policies and procedures; interviewing
DIT officials, program office officials, and members of the CIO Council. We also observed a
number of CIO Council meetings to understand how the statuses of on-going FDIC IT projects
are reviewed. Our evaluation objectives did not require that we evaluate whether the FDIC’s IT
project management controls were properly designed or require that we gain an understanding or
test information system controls. Further, our evaluation objectives did not require that we
specifically test the implementation of internal controls or effectiveness of controls except to the
extent we considered the effectiveness or implementation of controls in assessing factors that
promote project success or prevent projects from meeting expectations. As explained below, we
reviewed documentation for a sample of IT projects to understand the extent of documentation
and not to specifically test compliance with policies and procedures and other controls.

Figure 3: Summary of FDIC Policies and Procedures and IT Governance Documents

         FDIC Directives and DIT Policy                           FDIC IT Governance Documents
 FDIC Capital Investment Policy, dated September 23,        CIO Council Governance Guidelines, adopted revision
 2011.                                                      on November 15, 2012.

 FDIC Circular 1303.1, FDIC Enterprise Architecture         CIO Council Charter, revised and adopted on
 Program, dated June 16, 2008                               September 6, 2012.

 Policy 07-005 Systems Development Life Cycle               Charter of the Capital Investment Review Committee
 (SDLC), dated June 15, 2007.                               (CIRC), revised and adopted on October 2011.

 Policy 09-004 Information Technology Project               Charter for the FDIC Financial Analysis Committee
 Management (Project Management Office), dated              (FAC), adopted on May 2007.
 December 28, 2009.
                                                            Charter of the DIT Project Initiation Review Committee
 Policy 09-006 DIT Earned Value Management (EVM),           (PIRC), effective February 26, 2006.
 dated May 1, 2009.
Source: OIG analysis of FDIC directives, DIT policy, and IT governance documents.




                                                       23
                                                                                                 Appendix 1

To assess the extent to which the FDIC’s IT projects are meeting their cost, schedule, and
requirements expectations, we obtained CIO Council and CIRC reports on IT projects completed
or in-process during 2012 and 2013. We focused on that defined period because it provided us a
sufficient population from which to evaluate current IT project management practices and
processes.

To identify factors that contributed to a project’s success or difficulties, we took a case study
approach. To that end, we judgmentally selected six projects for review from FDIC’s inventory
of IT projects completed or in-process as of December 31, 2012. The results of a non-statistical
sample cannot be projected to the intended population by standard statistical methods. In
selecting projects, we included both CIRC and CIO Council projects and projects from a cross-
section of FDIC divisions and offices. We also took into consideration factors such as whether
the project management method employed the Agile methodology; estimated cost; the
contractor engaged to work on the project; and the current project status, including the extent of
any known problems or positive attributes. Table 5 summarizes key information about each of
the projects in our sample, including our reason for selecting the project.

Table 5: Summary of Projects Sampled
                                                       Actual or
                                                       Projected          Division
     IT Project Name           Project Status          Total Cost         Sponsor         Reason for Selection
Advanced Legal                Construction              $4.7 million    Legal Division    Legal Division
Information System (ALIS)                                                                   project
                                                                                          TechStat performed
Assessment Information        Completed with            $7.8 million        DOF           DOF project
Management System             update in process                                           Strong user
(AIMS)                                                                                      acceptance testing
Claims Administration         Construction              $3.6 million        DRR           DRR project
System (CAS) 2.0                                                                          High Profile
                                                                                          Issues reported in
                                                                                            prior versions
Examination Tools Suite-      Construction               $35 million    Division of       CIRC Portfolio
Supervisory Application                                                    Risk           RMS Project
Generating Exams                                                        Management        Agile methodology
(ETS-SAGE)                                                              Supervision         used
                                                                          (RMS)
Identity Access               Completed                      $950,000      DIT              Complex project
Management System                                                                           Cost overruns and
(IAMS)                                                                                       milestone delays
PROFORMA                      Construction              $2.7 million        DRR             Bank Closing Tool
                                                                                            Agile methodology
                                                                                             used
                                                                                            Project management
                                                                                             issues reported
Source: OIG analysis of DIT status reports and Projects at a Glance.

For the IT projects selected, we performed the following procedures.

       Reviewed RUP documentation to understand the purpose of the project and assess how it
        was being managed relative to an approved project proposal and the FDIC’s overall IT

                                                        24
                                                                                     Appendix 1

       project management framework. RUP documentation reviewed included project plans,
       configuration architecture, measurement analysis plans, software architecture plans,
       iteration assessments, milestone review presentations, budget proposal outlines, risk lists,
       schedule status reports, quality control strategies, risk management plans, system security
       plans, requirements vision, and master test plans. We did not assess whether the
       applications were adequately designed or specifically review RUP documentation to test
       whether development policies, procedures, and guidance had been properly implemented.

      Interviewed personnel in RMS, DRR, DOF, DIT, Division of Administration, and the
       Legal Division who were responsible for IT project management, risk management, and
       user testing to obtain their perspectives on project management, development practices,
       testing practices, and user expectations. We also interviewed FDIC contractor personnel
       who serve as project managers and DIT personnel in the Delivery Management Branch
       and Program Management Office. In these interviews, we solicited individual views
       about the factors that contributed to the project’s success or prevented the project from
       meeting expectations and ideas for strengthening the FDIC’s controls for monitoring IT
       projects, and analyzed responses to identify common themes or outlier comments that
       warranted follow-up.

To help us identify opportunities for strengthening the FDIC’s controls for monitoring IT
projects, in addition to discussions with FDIC personnel and FDIC contractor personnel, we
reviewed industry guidance. Specifically, we reviewed the following:

      Intel Information Systems Audit and Control Association (ISACA) publication,
       COBIT 5: A Business Framework for the Governance and Management of Enterprise IT,
       dated 2012. This publication contains five basic principles for governing and managing
       enterprise IT.

      Executive Office of the President of the United States, 25 Point Implementation Plan to
       Reform Federal Information Technology Management, date December 9, 2010. This
       plan covers the structural areas that impact the success rates of large IT programs across
       government.

      Global Technology Audit Guide (GTAG) 12: Auditing IT Projects, dated March 2009.
       This GTAG provides internal auditors with an overview of techniques for effectively
       engaging with project teams and project management offices (PMOs) to assess the risks
       related to IT projects.

      Global Technology Audit Guide (GTAG) 17: Auditing IT Governance, dated July 2012.
       This GTAG covers aspects of governance that should be in place to ensure IT supports
       the strategies and objectives of the organization, describes elements of effective
       governance and performance frameworks, and describes example controls that address IT
       governance risks.




                                                25
                                                                                         Appendix 2

                                         Glossary
            Term                                              Definition
Agile                        A group of software development methods based on iterative and
                             incremental development, where requirements and solutions evolve
                             through collaboration between self-organizing, cross-functional teams.
Basic Ordering Agreement     A written instrument of understanding negotiated between the FDIC and
                             a contractor for future delivery of as yet unspecified quantities of goods
                             or services. A BOA becomes a binding contract when a task order is
                             issued.
Business Outcome Index       An index developed by the FDIC PMO to summarize the current state of
                             DIT’s ability to deliver business outcomes with CIO Council projects.
Business Proposal Outline    A template tool used by the CIO Council for making informed decisions
                             related to the selection of FDIC CIO Council IT projects on a yearly
                             basis.
Deployment Plan              A deployment plan defines the sequence of operations or steps that must
                             be carried out to deliver changes into a target system environment.
Dodd-Frank Wall Street       The Dodd-Frank Act (Public Law No. 111-203) enacted July 21, 2010,
Reform and Consumer          contains many provisions affecting the FDIC and its regulatory
Protection Act (Dodd-        authorities over banks and the financial services industry. Certain of
Frank Act)                   those provisions affect how the FDIC calculates assessments on insured
                             depository institutions.
Intersecting Organizations   FDIC Intersecting Organizations are DIT and other FDIC groups that
                             projects interact with during a project's lifecycle.
Project Proposal Outline     A governance document that documents high-level elements of a
                             contemplated project in order to support decisions on funding and timing.
                             The Project Proposal Outline provides a good basis for development of a
                             project's vision.
Rational Unified             A comprehensive process framework that provides industry-tested
Process® (RUP)               practices for software and systems delivery and implementation and for
                             effective project management. RUP® is the standard systems
                             development methodology used by DIT for the IT projects it manages.
Risk List                    A document maintained by the Risk Manager of potential IT development
                             risks to be addressed. The list includes mitigating tasks to be completed
                             for each identified risk.
Software Development         The Software Development Plan is a comprehensive, composite
Plan                         document that gathers all information required to manage the project. It
                             includes a number of documents developed during the Inception phase
                             and is maintained throughout the project.
System Development Life      The overall process of developing, implementing, and retiring
Cycle (SDLC)                 information systems through a multistep process from initiation, analysis,
                             design, implementation, and maintenance to disposal.
Technical Evaluation Panel   A panel of FDIC employees established to evaluate the written proposals
                             for compliance with the solicitation’s technical requirements and the
                             evaluation criteria established in the solicitation for formal contracting.
TechStat                     A TechStat is an evidence-based review of an IT investment typically
                             requested by the governing IT committee when a project is
                             underperforming. It is based on a model developed by OMB.



                                                 26
                                                                                  Appendix 3

                     Acronyms and Abbreviations
Acronym / Abbreviation                                 Explanation
AIMS                     Assessment Information Management System
ALIS                     Advanced Legal Information System
BOI                      Business Outcome Index
CAS                      Claims Administration System
CIO                      Chief Information Officer
CIRC                     Capital Investment Review Committee
CM                       Corporate Management Council
CMCB                     Corporate Management Control Branch
DIT                      Division of Information Technology
DOF                      Division of Finance
DRR                      Division of Resolutions and Receiverships
ETS-ALERT                Examination Tools Suite - Automated Loan Examination Review Tool
ETS-SAGE                 Examination Tools Suite - Supervisory Application Generating Exams
GAO                      Government Accountability Office
IAMS                     Identity Access Management System
IO                       Intersecting Organization
IRM                      Independent Risk Manager
IT                       Information Technology
OIG                      Office of Inspector General
OMB                      Office of Management and Budget
PIR                      Project Initiation Review
PMO                      Program Management Office
PROFORMA                 Proforma Modernization
RMS                      Division of Risk Management Supervision
RUP                      Rational Unified Process®
SDLC                     System Development Life Cycle




                                             27
                                                                                    Appendix 4

       Summaries of IT Projects Included in the Evaluation
Advanced Legal Information System (ALIS)

ALIS will be the key system the FDIC’s Legal Division uses to manage matters and invoices
from outside counsel firms and legal support services contractors. ALIS will replace the current
Legal Integrated Management System by upgrading the foundational software from Corporate
Legal Desktop to Passport. The contractor will externally host Passport.

The CIO Council ordered a TechStat assessment in July 2012, as the ALIS project was
significantly behind in milestone schedules and over budget. The TechStat reported that ALIS
was originally planned to be completed by first quarter 2012 at a cost of approximately
$1.7 million. As of the TechStat report date of August 2012, ALIS was scheduled to go live on
February 4, 2013 at a total cost of approximately $3.4 million. The TechStat assessment
concluded ALIS was unlikely to meet the schedule and budget estimates presented to the CIO
Council based on past performance and the current challenges. The TechStat reported that:

       ALIS was a major overhaul and not an upgrade.

       Inconsistent understanding of “complete” existed between the FDIC and the contractor.

       Insufficient project detail existed to reliably predict outcome.

       Regular development and configuration issues existed.

       Ineffective communication occurred between stakeholders, DIT, and the contractor.

       Unresolved contractual disputes existed.

The TechStat Assessment suggested that the Legal Division and DIT consider taking a number
of corrective actions, including:

       Ensuring alignment of personnel skills with current challenges;

       Simplifying and streamlining coordination-related activities;

       Conducting all-hands-on-deck workshops to state, clarify, and confirm requirements for
        DIT, Legal, and the contractor; agree on criteria for determining “complete;” identify and
        address remaining risks; and implement an effective communication strategy;

       Developing concrete Go/No Go criteria;

       Conducting a thorough Market Analysis, if called for;

       Performing a Cost Benefit Analysis, if called for;



                                                 28
                                                                                    Appendix 4


      Ensuring the charters and associated responsibilities of the existing governance bodies
       were being met; and

      Inviting additional expertise to governance boards, including the CFO and a DOF Deputy
       Director.


ALIS ultimately was completed on August 13, 2013 at a total cost of $4,706,590.

At the project close-out briefing on October 24, 2013, DIT and the Legal Division presented
lessons learned to the CIO Council. Lessons learned included that:

      Detailed analysis should have been performed to assess project characteristics beginning
       with project planning and continuing through the first two RUP phases.

      ALIS was initially categorized as an upgrade of commercial off-the-shelf software, which
       did not account for the data conversion and migration activities combined with the
       custom development of 27 interfaces.

      The project team should have immediately and appropriately addressed concerns of the
       Independent Risk Manager.

      The FDIC Contracting Officer should have been involved when issues such as contractor
       staff turnover and delivery of quality products with contractors first arose.

      The Data Manager should have spearheaded data scrubbing activities earlier which may
       have resulted in the timely completion of data migration and fewer reported defects once
       ALIS went “live.”


Assessment Information Management System (AIMS)

AIMS enables the FDIC to comply with statutes mandating the FDIC to assess and invoice
financial institutions for deposit insurance premiums that provide the income for the Deposit
Insurance Fund. Using AIMS, FDIC manages the assessments process by performing operations
throughout the year in support of the quarterly assessment cycle and other special assessment
cycles. The assessments must be 100 percent accurate and delivered on time, every time.
Changes mandated by the Dodd-Frank Act and FDIC regulations that became effective in 2011
directly impacted the FDIC Assessment Program and required unanticipated modifications to the
AIMS system to address technology obsolescence risks and to revise the AIMS method for
calculating assessments.

The end results of AIMS development met the DOF user, stakeholder, and manager expectations
because the stakeholders or users were involved in daily meetings during AIMS development
and design and reviewed and performed test scripts. A key to AIMS’ success was that there was
100-percent staff involvement from DOF’s Assessments Branch. The staff wrote their own test

                                               29
                                                                                   Appendix 4

scripts, decided the test schedule, and met daily during user acceptance testing. Defects found
during testing were corrected before the release. DOF personnel handled the Testing Phase with
very little support from the contractor or DIT. Another success factor was that DOF and DIT
ensured that the contractor maintained the same IT project management team throughout a
number of releases.

The most challenging aspect of AIMS development was the contractor coordinating work with
the FDIC’s IOs involved in the project. Because one of the IOs disagreed with the AIMS
systems development approach (total rewrite versus enhancement), this IO refused to sign off on
milestone reviews. AIMS was never provided the resources to perform a total rewrite because
project performance had to meet the criteria and deadlines in the Dodd-Frank Act legislation.


Claims Administration System (CAS)

The purpose of CAS is to have a flexible process that will support deposit claims datasets from
both large and small financial institutions, decrease the amount of manual work done by Claims
Agents and the Business Information Systems staff, and enable the FDIC to handle the closing of
a financial institution of any size. DRR uses CAS to determine deposit insurance amounts and to
process deposit insurance claims when a financial institution fails. CAS 2.0 is a technology
upgrade to implement systems changes that will lead to improvements in the maintainability and
stability of the CAS application, reduce DIT maintenance costs, and provide for a more efficient
and intuitive user interface.

CAS 2.0 development met milestones and expectations due to the excellent communication and
collaboration between DRR, DIT, and the contractor. Other reasons for CAS development
success included: DRR designating a team of users to be testers on the system throughout
development; priority and support from client organization management; and an experienced
DIT project manager. Challenges experienced were largely due to contractor staff turnover.
Stakeholders generally reported that CAS development went well and that CAS met
expectations.


Examination Tools Suite-Supervisory Application Generating Exams (ETS-SAGE)

The objective of the ETS IT project is to replace prior RMS examination reporting tools and
transmittal forms and revitalize and simplify the examination process for both examiners and
reviewers. The program introduces wireless onsite networks that will enhance security and
accuracy of shared examination data in the bank. ETS was developed by examination staff for
use by examination staff. ETS is expected to: (1) increase efficiency and reduce maintenance
expenses by reducing technical complexity and by reducing the number of systems RMS
examiners must use to perform their jobs; (2) eliminate data redundancy and duplicative data
entry; (3) improve ease of access, reporting, and data accuracy by improving on and eliminating
the examiner download process, enhancing the Report of Examination review process, and
improving RMS’ Automated Loan Examination Review Tool’s (ALERT) import and mapping
processes; (4) reduce risk to and improve the security of examination data; and (5) reduce risk
from technological obsolescence.

                                              30
                                                                                    Appendix 4



During our review, ETS SAGE was meeting users’ expectations. Because the project team
developed ETS-SAGE after ETS-ALERT development, they had the benefit of lessons learned
from the ETS-ALERT’s Inception and Elaboration phases. The FDIC changed contractors after
ETS-ALERT’s Inception phase. This change challenged the replacement contractor team as
there was insufficient time for the knowledge transfer between the original and replacement
contractor teams. The stakeholders and managers all reported that the Agile software
development methodology was well-suited for this type of project and that it was critical to the
project’s success. DIT’s PMO personnel provided valuable support to the project and acceptance
of the Agile methodology. During our evaluation, the SAGE and ALERT projects were
combined.

We were informed after our interviews on the ETS-SAGE project that the contractor was not
aware of the complexity of the project and DIT had some difficulties preparing the testing
environments. Also, it had been determined that although the IT solution worked when the
testers were in an ideal environment, the solution would not work in remote locations where the
solution is most needed. The project team discovered that the FDIC’s current technology does
not support the IT solution developed by the contractor. As a result, the project has experienced
several delays and will require a contract extension to be completed.


Identity Access Management System (IAMS)

IAMS was implemented to manage FDIC IT user identities, workflow-based access requests, and
the systems access approval process. IAMS is a streamlined end-to-end integrated process that
captures all steps of FDIC access control from the initial entry of a new FDIC employee or FDIC
contractor to the time of their departure. This process ensures that accounts are set up with the
proper levels of security for all users. All corporate applications supported by DIT must be
tracked through IAMS. The IAMS application had a number of releases for each calendar year
of our review. These releases addressed defects and include enhancements and corrective
measures that will help improve the application’s efficiency and usability.

Environment testing improved from beginning to end. IAMS development improved during the
past year as compared to previous year’s progress. FDIC attributed the improved process to the
contractor’s latest assigned IT Project Manager. During the early development stages of
IAMS, the IT Project Managers assigned by the contractor experienced turnover which
significantly impacted the progress and IAMS continuity. When the contractor assigned a
highly skilled and engaged IT Project Manager, IAMS development improved significantly.

As the IAMS environment is complex, DIT ensured that the contractor’s test environment
matched the FDIC’s IAMS production environment. This was another significant challenge
early in IAMS development, but this situation improved over time and is much better now.
Although the contractor developed IAMS software outside of the FDIC environment, the
contractor designed IAMS to exactly match the FDIC’s operational environment.

Another challenge was the CIO Council budget process. Because the project was so complex
and involved many intersecting systems and organizations, there were many unanticipated
                                               31
                                                                                                   Appendix 4

improvements required during the Inception and Elaboration phases. However, the budget
dictated the amount of contractor time allocated to the project phase so the IAMS project kept
going over budget because of the additional requirements.5


Proforma Modernization (PROFORMA)

PROFORMA is a bank closing tool that brings failed bank financial statements into DRR's
accounting system. It imports the general ledger from a failing financial institution, allows
financial analysts to make final adjustments, and converts the information into a standardized
accounting system. PROFORMA is also used to print reports and statements used to create the
Inception balance entries for the receivership and initial starting balances for the assuming
institution(s).

PROFORMA is significantly behind schedule, as its development has significant environmental
challenges to overcome. The original project transition date of October 2012 was revised to
May 24, 2013 and extended to May 31, 2014. The project was built and initially tested by the
developers at an off-site location. When the system was tested in the FDIC’s technical
environment, significant challenges became apparent especially when operating at a failed
bank’s off-site location. Technical issues involving the FDIC’s hardware, DIT’s testing
capacities, and limitations of bandwidth availability at failed bank locations were not
communicated to the developers prior to construction of the IT solution. As a result, additional
costs have been incurred to upgrade the FDIC’s hardware and solutions are required to mitigate
these challenges.




5
 Although the project was over budget from a time perspective, because the project involved a firm fixed price
contract, the project was within its cost budget.

                                                        32
                                                                                                 Appendix 5

                           Corporation Comments


Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226-3500                                               Chief Information Officer




DATE:                 June 25, 2014

 TO:                  Stephen M. Beard
                      Deputy Inspector General for Audits and Evaluations

FROM:                 Martin Henning /Signed/
                      Acting Chief Information Officer

 SUBJECT:             Management Response to the Draft Audit Report Entitled,
                      The FDIC’s Information Technology Project Management Process
                      (Assignment No. 2013-013)


 Thank you for the opportunity to comment on the Office of Inspector General’s (OIG) draft
 report on FDIC’s information technology project management processes issued
 May 14, 2014. In its report, the OIG made one recommendation to the Acting Chief Information
 Officer (CIO), the CIO agrees with the recommendation, and actions to address the
 recommendation are planned or underway. Our specific response to the recommendation is
 provided below.

 MANAGEMENT RESPONSE

 Recommendation 1
 The OIG recommended that the Acting CIO:
       “(1) advise client divisions and offices, IT project teams, DIT intersecting organizations,
       and appropriate governance bodies of the key factors in project success or challenges and
       related controls we identified in this report and (2) determine whether guidance in any of
       these areas needs to be strengthened. ”

          Management Decision: Concur

          Corrective Action: The CIO believes that although due diligence is being exercised in
          advising stakeholders of the key factors and supporting guidance, both could be
          enhanced. The CIO agrees with the OIG that these key factors warrant a review to
          validate that stakeholders are properly advised and that current guidance is appropriate.
 .




                                                    33
     Appendix 5




34
                                                                                        Appendix 6

      Summary of the Corporation’s Corrective Actions

This table presents corrective actions taken or planned by the Corporation in response to the
recommendation in the report and the status of the recommendation as of the date of report
issuance.

                  Corrective Action: Taken         Expected      Monetary      Resolved:a     Open or
Rec. No.                 or Planned               Completion     Benefits      Yes or No      Closedb
                                                     Date
        1        Brief client divisions and       11/07/2014         $0           Yes         Open
                 offices, IT project teams,
                 DIT intersecting
                 organizations, and
                 appropriate governance
                 bodies regarding the key
                 factors in project success, or
                 challenges and related
                 controls identified in the
                 report and determine
                 whether current guidance
                 needs to be strengthened.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   Intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                   35
